No. 20-1788

 

 

In THE
Supreme Court of the United States

THE CiTy OF NEW YORK, et al,

Petitioners,
v.
JARRETT FROST,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit

REPLY BRIEF FOR PETITIONERS

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,586 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 15, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
